THE HUMAN RELIABILITY PROGRAM AT LAWRENCE
LIVERMORE NATIONAL LABORATORY




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




  Inspection Report

 The Human Reliability Program at
 Lawrence Livermore National
 Laboratory




 DOE/IG-0732                              June 2006
THE HUMAN RELIABILITY PROGRAM AT LAWRENCE
LIVERMORE NATIONAL LABORATORY


TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective                       1

              Observations and Conclusions                     2


              DETAILS OF FINDINGS

              Drug and Alcohol Test Random Selection Process   4

              LLNL Supervisory Reviews                         4

              Subcontractor Supervisory Reviews                5

              Unscheduled Duty Requirements                    6

              Medical Review Process                           6

              Communication                                    7

              Performance Metrics                              7

              Drug Testing Observation                         8


              RECOMMENDATIONS                                  9


              MANAGEMENT COMMENTS                              10


              INSPECTOR COMMENTS                               10


              APPENDICES

              A. Scope and Methodology                         11

              B. Management Comments                           12
Overview

INTRODUCTION    The Department of Energy’s (DOE’s) Lawrence Livermore
AND OBJECTIVE   National Laboratory (LLNL) supports the core mission of
                maintaining a safe, secure, and reliable nuclear weapons stockpile
                and applies scientific expertise towards the prevention of the
                proliferation of weapons of mass destruction and terrorist attacks.
                LLNL is managed by the University of California for the
                Department’s National Nuclear Security Administration (NNSA).

                DOE has long recognized that individuals involved in the nuclear
                weapons program need to meet the highest standards of reliability,
                including physical and mental suitability. In the past, DOE
                administered two separate but similar reliability programs to
                accomplish this task: the Personnel Security Assurance Program
                (PSAP) and the Personnel Assurance Program (PAP). In 2004,
                DOE combined the two programs into one new program, the
                Human Reliability Program (HRP). In March 2004, DOE
                approved LLNL’s HRP Implementation Plan, which established
                procedures, guidelines, and responsibilities for the HRP at LLNL.
                In April 2004, LLNL transitioned from the former PAP and PSAP
                into the HRP. The majority of LLNL’s employees currently in the
                HRP were “grandfathered in” from LLNL’s former PAP or PSAP.

                At LLNL, HRP certification is required for employees assigned to
                sensitive positions relating to the stewardship and protection of
                nuclear weapons and nuclear materials. Employees entering the
                program must possess a Q (Top Secret) clearance and must submit
                to an initial multi-phase certification process that is designed to
                identify and evaluate behaviors and conditions that may disqualify
                employees from holding HRP positions. Title 10 of the Code of
                Federal Regulations, Part 712, “Human Reliability Program” (10
                CFR 712) categorizes these behaviors and conditions into 12
                “reportable concerns.” These reportable concerns include, among
                others: mental stability, criminal activity, personal integrity, drug
                and/or alcohol abuse, financial responsibility, job performance and
                attendance, as well as safety and security.

                During the first phase of the HRP certification process, LLNL
                supervisors are responsible for: determining the need for initial or
                continued participation in the HRP, evaluating employees against
                the 12 reportable concerns, and submitting the required forms to
                the LLNL HRP administrator management team. The HRP
                administrator management team reviews and processes the




Page 1                                       The Human Reliability Program
                                             at Lawrence Livermore National
                                             Laboratory
                   applications, as well as initiates and oversees the remaining phases
                   of the HRP certification process, which include: HRP drug and
                   alcohol testing, medical and psychological evaluations, and
                   security and counterintelligence evaluations. The HRP security
                   evaluations are conducted by the NNSA Service Center Personnel
                   Security Division, located in Albuquerque, New Mexico. During
                   the last phase of the certification process, a certifying official from
                   NNSA’s Livermore Site Office (LSO) makes the final
                   determination for approval.

                   Individuals in the HRP are required to take random, unannounced
                   drug and alcohol tests. They also must be recertified every 12
                   months. The requirements for the recertification process are
                   essentially the same as for the certification process, and the same
                   certification form is used for both.

                   The objective of this inspection was to determine if the LLNL
                   HRP was administered in accordance with DOE requirements and
                   LLNL’s HRP Implementation Plan.

OBSERVATIONS AND   We concluded that the LLNL HRP was not administered in
CONCLUSIONS        full accordance with DOE requirements and the LLNL HRP
                   Implementation Plan. Specifically, we found that:

                   •   The methodology used to select individuals for drug and
                       alcohol testing did not ensure that the tests were random, as
                       required.

                   •   When an LLNL employee’s payroll supervisor was not also
                       his/her observing supervisor, the two supervisors did not
                       always conduct joint employee evaluations, as required by the
                       LLNL HRP Implementation Plan. This joint evaluation is
                       important because the two supervisors may have differing
                       knowledge relating to an employee’s job performance that
                       could impact his/her participation in the HRP.

                   •   Subcontractor employees in the HRP were not being evaluated
                       by both their company payroll supervisor and their LLNL
                       observing supervisor as required by the LLNL HRP
                       Implementation Plan.

                   •   Some HRP personnel who were called into work for unscheduled
                       HRP duties were not, as required by the LLNL HRP
                       Implementation Plan, questioned about whether they had
                       consumed alcohol within the previous four hours.



Page 2                                                Observations and Conclusions
         •   The HRP medical reviews were not always as comprehensive
             as required by DOE regulations.

         In addition, we found that:

         •   LLNL HRP management officials, LLNL designated medical
             officials, LSO certifying officials, and NNSA Service Center
             Personnel Security Division officials did not always adequately
             communicate regarding reportable concerns when evaluating
             HRP employees.

         •   The LLNL HRP did not have specific performance metrics to
             measure significant aspects of the program.

         During our inspection, we noted that the DOE-wide HRP drug
         testing program did not include categories of drugs that are
         commonly abused, such as synthetic narcotic pain medications and
         hallucinogens. Given the significance of the HRP to national
         security, we believe DOE should consider updating the HRP drug
         testing program to address these drugs.

         LLNL HRP management officials advised us that, as a result of our
         inspection and further communication with them, a number of
         actions have been taken or initiated to address many of the areas
         we identified as not being in compliance with DOE requirements
         or the LLNL HRP Implementation Plan. For example, LLNL
         advised us that: the computer program for generating random
         selection of individuals for drug and alcohol testing was modified,
         comprehensive final medical reviews were being conducted on all
         HRP employees during medical evaluations, a supplemental
         supervisory review form was created to facilitate the certification
         process, and more comprehensive performance metrics were
         implemented. However, some actions remain to be completed, and
         DOE management needs to confirm that corrective actions
         adequately address all the issues we have identified.




Page 3                                   Observations and Conclusions
Details of Findings

DRUG AND ALCOHOL      We found that the methodology used to select individuals for
TEST RANDOM           drug and alcohol testing did not ensure that the tests were random,
SELECTION PROCESS     as required by DOE policy and the LLNL HRP Implementation Plan.
                      The LLNL HRP Implementation Plan and 10 CFR 712 require all
                      personnel in the HRP to be subject to at least one unscheduled and
                      unannounced randomly selected drug and alcohol test within a 12-
                      month period. To be random, there should be equal probability of
                      selection over a 12-month period. However, we determined from a
                      review of a judgmental sample of the HRP files for 100 employees
                      that approximately 67 percent of the individuals’ drug and alcohol
                      testing dates fell within 1 or 2 months of the 12-month anniversary
                      of each individual’s previous testing date. Thus, instead of the
                      required random selection, it was highly probable (67 percent) that a
                      testing date would occur within 1 to 2 months of the anniversary
                      date. This statistic also raised concern about whether the testing
                      truly met the intent of the requirement that it be unscheduled and
                      unannounced. In fact, some LLNL HRP employees we interviewed
                      said that they thought the drug testing was an annual requirement
                      associated with the annual recertification because they were always
                      drug tested at about that time.

                      We were told by HRP officials and LSO management that the
                      reason for the lack of uniformity of testing throughout the 12-
                      month period was that many of the HRP employees who were
                      initially selected for drug and alcohol testing were unavailable on
                      the day of selection. LLNL’s procedure was that these employees
                      were not to be notified of their selection and that their names were
                      to be reentered into the selection pool. LSO management and
                      LLNL HRP officials acknowledged that this has resulted in
                      employee test selections being pushed back toward the end of the
                      12-month period, necessitating more frequent and often repetitive
                      test selections to ensure all employees received their drug and
                      alcohol testing within the 12-month period. After we raised
                      concerns about the randomness of the testing, LLNL took action to
                      modify the computer program used to select employees for testing
                      so that more employees are selected earlier in the 12-month cycle.
                      While this action may help alleviate the situation, it does not
                      address the problem noted above associated with reentering
                      unavailable employees into the selection pool.

LLNL                  We found that, when an LLNL employee’s payroll supervisor
SUPERVISORY           was not also his/her observing supervisor, the two supervisors did
REVIEWS               did not always conduct joint employee evaluations, as required by
                      the LLNL HRP Implementation Plan. This joint evaluation is
                      important because the two supervisors may have differing
______________________________________________________________________

Page 4                                                               Details of Findings
                knowledge relating to an employee’s job performance that could
                impact his/her participation in the HRP. Supervisors are
                responsible for initially identifying and recommending employees
                for positions in the HRP and conducting reviews on an annual basis.
                In addition, through both observation and review of attendance,
                conduct, and job performance records, supervisors are required to
                evaluate employees in regard to the 12 reportable concerns.

                We learned that many LLNL employees were assigned both a payroll
                supervisor and an observing supervisor. Typically, the payroll
                supervisor retained control of the attendance, conduct, and job
                performance records, while the observing supervisor directed and
                supervised the employee’s daily activities and was better positioned
                to observe the employee’s job performance. LLNL’s HRP
                Implementation Plan stipulated that payroll supervisors were required
                to initiate contact with observing supervisors during the evaluation
                process in order to confirm that no disqualifying reportable concerns
                existed, and the payroll supervisor was required to sign the HRP
                certification form affirming the employee’s continued qualification.

                We interviewed a number of HRP payroll and observing supervisors.
                We learned that in some instances payroll supervisors were not
                communicating with observing supervisors during the employee
                HRP evaluation process to confirm that no disqualifying reportable
                concerns existed, yet they were signing the HRP certification forms
                affirming the employee’s continued qualification.

SUBCONTRACTOR   We found that subcontractor employees in the HRP were not being
SUPERVISORY     evaluated by both their company payroll supervisor and their
REVIEWS         LLNL observing supervisor as required by the LLNL HRP
                Implementation Plan. Typically, a subcontractor employee in an HRP
                position was supervised by a subcontractor payroll supervisor and an
                LLNL observing supervisor. The LLNL HRP Implementation Plan
                required subcontractor payroll supervisors to review subcontractor
                HRP employee attendance, conduct, and job performance records as
                well as evaluate HRP subcontractor employees in regard to the 12
                reportable concerns. The plan also required an employee’s
                subcontractor payroll supervisor to initiate communications with the
                employee’s LLNL observing supervisor to confirm no disqualifying
                reportable concerns existed, and then both were required to co-sign the
                HRP certification form. We observed that although the DOE-
                approved HRP certification form did not contain two signature lines,
                the form contained enough space to accommodate two signatures.

                We reviewed a majority of the subcontractor employee HRP files and
                determined that there were no supervisory co-signatures on any of the



Page 5                                                        Details of Findings
                           subcontractor employees’ HRP certification forms. Further, our
                           interviews with subcontractor and LLNL supervisors identified that in
                           some instances reviews were occurring without discussions between
                           subcontractor payroll supervisors and LLNL observing supervisors
                           and without pertinent record checks being done. For example, in the
                           case of one subcontractor, we determined an LLNL observing
                           supervisor was signing as the reviewing supervisor with little or no co-
                           review occurring with any of the subcontractor payroll supervisors.
                           Further, the LLNL observing supervisor did not have access to any of
                           the subcontractor employee records; thus, no subcontractor employee
                           attendance, conduct, or job performance records were being reviewed.
                           In the case of another subcontractor, a subcontractor payroll
                           supervisor/manager was reviewing subcontractor employees with little
                           or no co-review occurring with any LLNL observing supervisors.

UNSCHEDULED       We found that some HRP personnel who were called into work for
DUTY REQUIREMENTS unscheduled HRP duties were not, as required by the LLNL HRP
                  Implementation Plan, questioned about whether they had consumed
                  alcohol within the previous four hours. The LLNL HRP
                  Implementation Plan states that supervisors who call in an HRP
                  employee to perform HRP duties on an unanticipated shift are required
                  to ask the employee whether he/she has been alcohol abstinent for the
                  four hours prior to the call. If the individual has not been alcohol
                  abstinent for the required period of time, he/she is not to report for duty.

                           We conducted interviews with maintenance and security personnel,
                           including supervisory personnel, whose organizations are more
                           commonly subject to unscheduled call-ins. We determined that some
                           employees were not being questioned about their alcohol consumption
                           prior to being called into work. Further, some supervisors were not
                           even aware of the requirement to ask about alcohol consumption.

MEDICAL REVIEW             We found that the HRP medical reviews were not always as
PROCESS                    comprehensive as required by DOE regulations. At LLNL, the HRP
                           medical evaluation process was comprised of a physical examination
                           and a psychological examination conducted by or under the
                           supervision of HRP Designated Physicians and HRP Designated
                           Psychologists from the LLNL Health Services Department,
                           respectively. According to 10 CFR 712, the HRP Designated
                           Physician is responsible for conducting a final comprehensive
                           medical review in order to integrate the medical evaluation,
                           psychological evaluation, and any other relevant information to
                           determine an individual’s overall medical qualifications for an
                           assigned HRP position. The HRP Designated Physician confirms
                           this review by signing the HRP certification form.




Page 6                                                                    Details of Findings
                We determined from our review of the 100 employee HRP files
                and interviews with medical officials that in some cases the
                Designated Physicians were not reviewing the psychological
                evaluation files of individuals being certified in the HRP unless
                notified by a Designated Psychologist of a specific concern.
                Compounding this, we learned that in many cases medical
                information such as current physical examination results was not
                available to the psychological staff at the time the psychological
                evaluations were conducted and completed.

COMMUNICATION   We found that LLNL HRP management officials, LLNL designated
                medical officials, LSO certifying officials, and NNSA Service
                Center Personnel Security Division officials did not always
                adequately communicate reportable concerns when evaluating HRP
                employees. 10 CFR 712 allows NNSA Personnel Security Division
                officials to share with designated medical officials information they
                may have learned about psychological disorders or behavior issues
                that may impact an individual’s ability to perform HRP duties.
                Likewise, 10 CFR 712 directs designated medical officials to report
                any security concerns to HRP management officials, who are then
                required to report the issues to NNSA Personnel Security Division
                officials and to LSO certifying officials.

                Based on our review of the 100 employee HRP files and interviews
                with the above mentioned officials, we determined that in some
                cases HRP employees were being evaluated by both HRP
                designated medical officials and NNSA Service Center Personnel
                Security Division officials for similar reportable concern issues;
                however, appropriate communication was not occurring between
                the medical and security officials. For example, we observed some
                cases where Personnel Security Division officials and LLNL
                designated medical officials were attempting to resolve drug and/or
                alcohol concerns and personal integrity concerns on the same
                employees with no communication or exchange of information
                between the security and medical officials.

PERFORMANCE     We found that the LLNL HRP did not have specific performance
METRICS         metrics to measure significant aspects of the program. Although
                LLNL conducted annual reviews of HRP files, these reviews were
                not sufficiently comprehensive to identify necessary improvements,
                such as those identified in this inspection. We believe that LLNL
                officials need to develop comprehensive performance measures to
                ensure the HRP is being administered in accordance with the LLNL
                HRP Implementation Plan and DOE requirements.




Page 7                                                         Details of Findings
DRUG TESTING   During our inspection, we observed that the DOE-wide HRP drug
OBSERVATION    testing program did not include categories of drugs that are currently
               commonly abused. For example, LLNL medical officials told us
               that narcotic pain medications such as Oxycontin, Oxycodone, and
               Hydrocodone (Vicodin) are not detectable using the current drug
               testing standards. According to the results of a Department of
               Health and Human Services (HHS) 2004 National Survey on Drug
               Use and Health, the abuse of narcotic pain medications in the United
               States is now equal to or exceeds the abuse of many of the drugs
               currently being tested for in the HRP, such as cocaine,
               methamphetamine, and heroin. In addition, we learned that, even
               though the HRP regulation (10 CFR 712) specifically prohibits the
               use of or the previous use of hallucinogens within the last five years,
               commonly abused hallucinogenic drugs such as d-lysergic acid
               diethylamide (LSD) and methylenedioxymethamphetamine (ecstasy)
               are also not detectable using the current drug testing standards.

               Under current DOE regulations, drugs that may be tested for
               during the initial and random HRP drug tests are the five major
               drug categories “mandated” for DOE and other Government
               Executive Branches by HHS under the guidelines for Federal
               Workplace Drug Testing Programs. Any deviation from the HHS
               guidelines must be reviewed and approved by the Secretary of
               HHS. The HHS guidelines are implemented at DOE facilities
               under Title 10 of the Code of Federal Regulations, Part 707,
               “Workplace Substance Abuse Programs at DOE Sites” (10 CFR
               707) and are made applicable to the HRP drug testing program
               under 10 CFR 712. The HHS guidelines were enacted in 1988 and
               updated in 2004; however, the categories of drugs tested for under
               these guidelines have not changed, even though there are many
               new drugs that are commonly abused today. Currently, 10 CFR
               707 only provides for expanded drug testing under “reasonable
               suspicion” situations where two or more supervisors or
               management officials agree that additional testing is appropriate
               and the suspicion is based on an “articulable belief that an
               employee uses illegal drugs, drawn from particularized facts and
               reasonable inferences of those facts.”

               The HRP is a vital national security program designed to protect the
               most sensitive nuclear weapon interests of the United States
               Government. Given the gaps in DOE’s HRP drug testing program,
               we believe that the Director for Security and Safety Performance
               Assurance, as the entity responsible for security policy within DOE,
               should consider updating the HRP drug testing program to address
               additional drugs commonly abused today.




Page 8                                                         Details of Findings
RECOMMENDATIONS      Contractor officials advised that a number of corrective actions have
                     been taken or initiated to address the concerns identified during our
                     review. However, to ensure that the matters raised in this report are
                     fully addressed, we recommend the Manager, Livermore Site Office
                     requires that:

                     1. LLNL payroll supervisors and observing supervisors jointly
                        conduct required HRP reviews, in accordance with LLNL’s
                        HRP Implementation Plan.

                     2. For subcontractor HRP employees, both the subcontractor
                        payroll supervisor and the LLNL observing supervisor conduct
                        thorough HRP reviews and co-sign the HRP certification form
                        in accordance with LLNL’s HRP Implementation Plan.

                     3. LLNL supervisors are aware of and act on their responsibility
                        to question HRP individuals about alcohol consumption when
                        called in for unscheduled duty.

                     4. LLNL HRP drug and alcohol tests are, in fact, random.

                     5. LLNL Designated Physicians conduct comprehensive final
                        medical reviews on all HRP applicants in accordance with 10
                        CFR 712.

                     6. LLNL implements specific performance measures for
                        significant aspects of the HRP.

                     We recommend the Manager, NNSA Service Center and the
                     Manager, Livermore Site Office ensure that:

                     7. Service Center Personnel Security Division officials, LLNL
                        HRP management officials, designated HRP medical
                        personnel, and LSO certifying officials work together to
                        develop and implement a plan, consistent with 10 CFR 712, to
                        enhance communication of reportable concerns during the HRP
                        employee certification process.

                     We recommend the Director, Office of Security and Safety
                     Performance Assurance:

                     8. Reviews the adequacy of current HRP drug testing categories
                        for identifying commonly abused drugs, and updates the HRP
                        drug testing program, as necessary, to address additional drugs
                        commonly abused today.

______________________________________________________________________

Page 9                                                             Recommendations
MANAGEMENT           In comments on our draft report, NNSA concurred with
COMMENTS             recommendations 1 through 7, and the Office of Security and
                     Safety Performance Assurance concurred with recommendation 8.
                     Both indicated that corrective actions have been taken or initiated.
                     Management’s comments are included in Appendix B.

                     In comments from LSO that were attached to the NNSA response,
                     LSO commented that, in its view, LLNL is in compliance with
                     HRP regulations with respect to random drug and alcohol testing
                     where individuals must have a random test at least once every 12
                     months from the previous test. LSO stated that all employees have
                     an equal probability of selection over a 12-month period, but
                     because of vacation, travel, sick leave, shift work, etc., a
                     percentage of individuals are not tested when first selected. LSO
                     stated that this has led to situations where individuals who are
                     frequently unavailable when selected get their testing dates pushed
                     back, with the selection algorithm choosing their name more often
                     until they are successfully tested.

INSPECTOR            In general, we found management’s comments to be responsive
COMMENTS             to our findings and recommendations. However, regarding LSO’s
                     comments, we continue to believe that LLNL’s methodology for
                     selecting individuals for drug and alcohol testing did not ensure
                     that the tests were random, as required. Specifically, 10 CFR 712
                     requires “the unscheduled, unannounced drug testing of randomly
                     selected employees by a process designed to ensure that selections
                     are made in a nondiscriminatory manner.” LLNL has created, at a
                     minimum, an appearance of predictability that challenges the
                     requirement for random testing. Specifically, a majority of the
                     individuals (approximately 67 percent from our sample) were
                     being tested within the last 2 months before their 12-month
                     anniversary date. In fact, some LLNL HRP employees that we
                     interviewed said that they thought the drug testing was an annual
                     requirement associated with the annual recertification because they
                     were always drug tested at about that time.

                     Management also provided technical comments concerning the
                     report. We evaluated these comments and made changes to the
                     report, as appropriate.




______________________________________________________________________

Page 10                                      Management and Inspector Comments
Appendix A
______________________________________________________________________

SCOPE AND            We performed the majority of our inspection fieldwork between
METHODOLOGY          July and October of 2005. We interviewed LLNL officials, NNSA
                     Service Center officials, LSO officials, and LLNL employees and
                     supervisors involved in the HRP. We reviewed DOE and LLNL
                     policies, procedures, and records relating to the HRP process.
                     Documents used in this review included:

                     •   10 CFR 712, “The Human Reliability Program.”

                     •   10 CFR 707, “Substance Abuse Programs at DOE Sites.”

                     •   DOE Form 470.3, “HRP certification form.”

                     •   The Livermore HRP Implementation Plan, dated March 24,
                         2004.

                     •   The HHS 2004 National Survey on Drug Use and Health.

                     Also, pursuant to the “Government Performance and Results Act
                     of 1993,” we reviewed Livermore’s performance measurement
                     processes as they related to the HRP.

                     This inspection was conducted in accordance with the “Quality
                     Standards for Inspections” issued by the President’s Council on
                     Integrity and Efficiency.




______________________________________________________________________

Page 11                                                     Scope and Methodology
Appendix B
______________________________________________________________________




______________________________________________________________________

Page 12                                          Management Comments
Appendix B (continued)




Page 13                  Management Comments
Appendix B (continued)




Page 14                  Management Comments
                                                                    IG Report No. DOE/IG-0732

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Ms. Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
